4a
I

@QCKLE

5 E-Mail Address:
L € & a 1 B rie fs contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No. 20-107
CEDAR POINT NURSERY AND

FOWLER PACKING COMPANY, INC., PETITIONERS
v.
VICTORIA HASSID, IN HER OFFICIAL
CAPACITY AS CHAIR OF THE CALIFORNIA
AGRICULTURE LABOR RELATIONS BOARD, ET AL.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF AMICI CURIAE OF
VIRGINIA, COLORADO, CONNECTICUT, DELAWARE, DISTRICT OF COLUMBIA,
HAWAII, ILLINOIS, MASSACHUSETTS, MICHIGAN, MINNESOTA, NEW JERSEY, NEW
MEXICO, NEW YORK, OREGON, PENNSYLVANIA, RHODE ISLAND, VERMONT, AND
WASHINGTON IN SUPPORT OF RESPONDENTS in the above entitled case complies with the
typeface requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook
12 point for the text and 10 point for the footnotes, and this brief contains 3379 words, excluding
the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 12th day of February, 2021.
1 am duly authorized under the laws of the State of Nebraska to administer oaths.

B GENERAL NOTARY-State of Nebraska & 2 4 J
f RENEE J. GOSS 9 ( Ledeen A
‘My Comm, Exp. September 5, 2023 a

Notary Public Affiant 40435
